(

\.

-H

No.

tln
Supreme Court of tfje Umteb States
CALVIN BERNHARDT,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for A Writ of Certiorari to the United
States Court ofAppeals for the Eighth Circuit
CERTIFICATE OF SERVICE
I, Calvin Bernhardt, Petitioner pro se, hereby
certify that on this 17-fK day of JMME , 2021, as
required by Supreme Court Rule 29,1 have served a true
copy of the enclosed Motion for Leave to Proceed In Forma
Pauperis and Petition for Writ of Certiorari, on each party
to the above styled proceeding or that party’s counsel by
depositing same in the United States mail with postage
prepaid and affixed thereon, to: The Solicitor General of
the United States of America, Department of Justice, 950
Pennsylvania Ave., N. W., Room 5614, Washington, D.C.

O
20530 and counsel for Respondent, United States of
America, Office of the United States Attorney for the
District of North Dakota, 655 1st Ave N #250, Fargo, ND
58102.

CALVIN BERNHARDT
Pro Se Petitioner
Fed. Reg. No. 16006-059
USP Tucson
P.O. Box 24550
Tucson, AZ 85734

